CERTIFICATE OF WORD COUNT
NO. 19-715, 19-760
Trump et al.,
Petitioners,
v.
Mazars USA LLP et al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the BU LAW PROFESSORS
AMICUS AT MERITS STAGE IN SUPPORT OF RESPONDENT(S) contains 7999 words, including the parts of
the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
March 3, 2020

SCP Tracking: Kealy-765 Commonwealth Avenue-Cover Dark Green

